The U.S. International Trade Commission is an independent, nonpartisan, quasi-judicial federal agency
that provides trade expertise to both the legislative and executive branches of government, determines the
impact of imports on U.S. industries, and directs actions against certain unfair trade practices, such as
patent, trademark, and copyright infringement. USITC analysts and economists investigate and publish
reports on U.S. industries and the global trends that affect them. The agency also maintains and publishes
the Harmonized Tariff Schedule of the United States.




                                             Commissioners
                                        Irving A. Williamson, Chairman
                                        Deanna Tanner Okun
                                        Daniel R. Pearson
                                        Shara L. Aranoff
                                        Dean A. Pinkert
                                        David S. Johanson
     UNITED STATES INTERNATIONAL TRADE COMMISSION

                         OFFICE OF INSPECTOR GENERAL
                                 WASHINGTON, DC 20436




August 16, 2012                                                            OIG-KK-011


Chairman Williamson:

This memorandum transmits the Office of Inspector General’s final report, Audit of
Software Licensing, OIG-AR-12-10. In finalizing this report, we analyzed management’s
comments to our draft report and have included those comments in their entirety as
Appendix A.

This audit focused on whether the Commission is paying for all installed software. We
collected and analyzed information describing the software installed on the network, and
compared this to the Commission’s proof of licensing for these products.

This report contains six recommendations for corrective action. In the next 30 days,
please provide me with your management decisions describing the specific actions that
you will take to implement each recommendation.

Thank you for the courtesies extended to the auditor during this evaluation.




Philip M. Heneghan
Inspector General
                            U.S. International Trade Commission
                                                  Audit Report



                                             Table of Contents

Results of Audit ............................................................................................. 1

Problem Area ................................................................................................ 1
   Problem Area: The Commission did not know the software licensing obligations for
   all applications installed on its network. ......................................................................... 1

Management Comments and Our Analysis ............................................... 4
Objective, Scope, and Methodology ............................................................ 4
Appendix A: Management Comments on Draft Report ...........................A




OIG-AR-12-10                                             -i-
                     U.S. International Trade Commission
                                     Audit Report


                                  Results of Audit
The purpose of this audit was to answer the question:

Is the Commission paying for all installed software?

       No. The Commission was not paying for all installed software.

The Commission did not have a complete record of all software installed on its network
and was unaware of the licensing terms for some software that it had deliberately
installed. As a result the Commission could not ensure that it had paid for all installed
software.

The Commission had proof of licensing for software products from 18 vendors. We
compared those to paid, commercial software applications from over 140 vendors we
found on the network. The problem we identified was that the Commission did not know
the software licensing obligations for all applications installed on its network. Before
software is installed on the network the license agreements should be understood and
approved.

Until the Commission knows the software licensing obligations for applications installed
on its network, it cannot ensure that it is paying for all installed software.



                                   Problem Area

                                   Problem Area:
           The Commission did not know the software licensing obligations
                   for all applications installed on its network.


The Commission did not know the software licensing obligations for all applications
installed on its network.

The Commission uses software that is licensed in different ways:

   ● Free software (freeware): this software is freely downloadable and usable by
     anyone, for any reason, at no cost;
   ● Shareware: this software is freely downloadable, but the terms of its license
     define whether fees must be paid depending on its use; and



OIG-AR-12-10                               -1-
                     U.S. International Trade Commission
                                     Audit Report


   ●   Commercial, paid software: this software is not typically available for download
       without payment, and the terms of its licenses describe how it may be used, and
       the fees associated with its use.

We compared the license terms for a sampling of software installed on the network with
the Commission’s documentation for its purchased software licenses. We found that the
Commission did not comply with the license terms for some of its installed software.
Based on interviews with CIO staff, it appears that the Commission did not fully
understand the licensing terms of some installed software.

Our audit of installed software found at least one instance of “cracked” software.
Software described as cracked indicates that someone has modified the original code of
the software to bypass or remove copy protections to allow the use of the software
without paying for it. Software that has been tampered with in this way has also been
found to have been modified for nefarious purposes, including the compromise of
networks and theft of data. For security reasons, cracked software should never be
allowed to be installed on a Federal Government network. Cracked software is typically
used when someone wants to use commercial software but does not want to pay for it. It
is unclear why the software was installed on the network.

The Commission did not prevent or detect the installation of the cracked software, and
was unable to identify when it was installed, or by whom. This combination of events
places the Commission at risk of violating license agreements, and subjects the
Commission’s network systems to additional risk.

For the last several years, when it detected a virus on a Commission workstation, the
Help Desk installed software that performed detection and eradication of malware. This
software was licensed as shareware. The terms of the shareware license indicated that it
could be used without payment for personal use, but it required payment if used as part of
a commercial support or help desk function. In this case, the Commission used the
software for free, when in fact it should have paid for each installation. Had the
Commission understood the licensing terms, it could have either budgeted for its use or
pursued alternative means of identifying and eradicating malware.

The Commission also uses a wide range of paid commercial software to perform its
work. This includes operating systems, office suites, client application software, and
enterprise database software. All of this software requires paid licenses, and each of
these licenses has different requirements. Software can be licensed per user, per device
(workstations, servers, smart-phones, etc.), per site, or per organization.

In one instance, the Commission used a graphical software application that was
distributed to 318 workstations. The Commission believed that it owned a site license,
meaning that for a fixed fee, any and all Commission network users could use the
software in compliance with its licensing. We contacted the vendor of this software, and


OIG-AR-12-10                               -2-
                      U.S. International Trade Commission
                                      Audit Report


were told that the license is for a maximum of 100 users, and no more. Because the
Commission did not understand the terms of its license, it was potentially in violation of
its agreement.

In many other instances, we found installations of paid software for which no records of a
purchased license could be located. The Commission needs to verify the terms of its
current licenses and track the licenses so they can be reconciled with current use.

Complex, expensive software can typically be expected to have complex licensing
agreements. If these licensing agreements are not clearly understood, decisions may be
made to use software without regard to cost, which leads to one of two scenarios: (1) if
properly licensed, a tremendous amount of money can be spent to achieve something of
minimal value to the organization; or (2) the organization is either unaware of or ignores
the fact that it is in violation of its software licensing agreements.

During this audit we identified an expensive software package installed on more servers
than the Commission had licenses for. Because this software employs a complex
licensing scheme, the Commission did not understand its payment obligation. The CIO
had identified this problem and had begun correcting the situation prior to the start of this
audit.

The Commission uses software with a range of licensing terms, ranging from simple and
free to complex and expensive. It has a responsibility to comply with all licenses of the
software it uses.

Recommendation 1: Require and retain proof of proper licensing before the installation
of software.

Recommendation 2: Centralize records of licensing details for reconciliation purposes,
including the terms of the license for efficient review.

Recommendation 3: Add technical controls to prevent the installation of software by
users.

Recommendation 4: Implement technical monitoring to detect the installation of
software, including details on when it was installed and by whom.

Recommendation 5: Validate terms of current licenses.

Recommendation 6: Remove software that is unlicensed.




OIG-AR-12-10                                -3-
                      U.S. International Trade Commission
                                         Audit Report


              Management Comments and Our Analysis
On August 9, 2012, Chairman Irving Williamson provided management comments on the
draft audit report. The Chairman agreed with our assessment that there is a problem area
in that the Commission did not know the software licensing obligations for all
applications installed on its network, and that the Commission will implement the
recommendations detailed to insure that the Commission complies with all licensing
obligations installed on its network. The Chairman’s response is provided in its entirety
as Appendix A.



                    Objective, Scope, and Methodology
Objective:
Is the Commission paying for all installed software?

Scope:
The scope of this audit included all production servers and workstations in use at the
USITC as of February 5, 2012.

Methodology:

       1. Use existing CIO tools (SCCM) to identify all software installed on the
           ITCNet Active Directory domain.
       2. Through inspection, identify all software installed on systems not on the
           ITCNet Active Directory domain.
       3. Obtain all licensing agreements for purchased software and reconcile against
           list of installed software.
       4. Identify any differences between installed and purchased software.
We conducted this performance audit in accordance with Generally Accepted
Government Auditing Standards (GAGAS). Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis
for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on
our audit objectives.




OIG-AR-12-10                                 -4-
               U.S. International Trade Commission
                            Appendix


    Appendix A: Management Comments on Draft Report




Appendix A: Management Comments on Draft


OIG-AR-12-10                  -A-
“Thacher’s Calculating Instrument” developed by Edwin Thacher in the late 1870’s. It is a cylindrical, rotating slide
rule able to perform complex mathematical calculations involving roots and powers quickly. The instrument was used
by architects, engineers, and actuaries as a measuring device.
